IN THE SUPREME COURT OF THE UNITED STATES
REZA OLANGIAN,
Petitioner,
- against-

UNITED STATES OF AMERICA,
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
The petitioner, REZA OLANGIAN, asks for leave to file the annexed Petition for
Writ of Certiorari to the United States Court of Appeals for the Second Circuit without
prepayment of costs and to proceed in forma pauperis pursuant to Rule 39.
Petitioner was previously granted in forma pauperis relief pursuant to the
Criminal Justice Act (18 U.S.C. ยง 3006A) and assigned counsel, and is currently
serving his sentence in a Federal prison. On information and belief, he remains
indigent. A copy of the order of appointment is attached.
Dated:

New York, NY
July 10, 2020

Attar

y for Petitioner
ifth Avenue, Suite 514
New York, NY 10017
(212) 871-0571
jona than.edelstein.2@gmail.com

